U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

April 3, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Erica Y. Bryant, et al. v. United States, No. 19-982
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 3,
2020, and placed on the docket on February 5, 2020. The government’s response is now due, after
one extension, on April 6, 2020. We respectfully request, under Rule 30.4 of the Rules of this
Court, a further extension of time to and including April 10, 2020, within which to file a response.
This short extension is necessary because, in light of COVID-19, this Office is endeavoring
to minimize risks to the health and safety of our personnel responsible for the filing and service of
paper copies of Court documents by reducing the number of days each week on which the filing
and service of such documents are necessary and on which those personnel must report to work in
person.
Counsel for petitioner consents to this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0982
BRYANT, ERICA Y., ET AL.
USA

JOSEPH L. ANDERSON
THE PANGIA LAW GROUP
1717 N STREET, NW
WASHINGTON, DC 20036
202-955-6450
J. EDWARD BELL, II
BELL LEGAL GROUP
219 RIDGE STREET
GEORGETOWN, SC 29440
843-546-2408
JAY T. BREAKSTONE
PARKER WAICHMAN LLP
SIX HARBOR PARK DRIVE
PORT WASHINGTON, NY 11050
516-466-6500
JBREAKSTONE@YOURLAWYER.COM
ROBERT B. JACKSON, IV
260 PEACHTREE STREET, NW
SUITE 2200
ATLANTA, GA 30303
404-313-2039
DONALD D.J. STACK
260 PEACHTREE STREET, NW
SUITE 1200
ATLANTA, GA 30303
404-692-7504

ALTON C. TODD
THE LAW FIRM OF ALTON C. TODD
312 SOUTH FRIENDSWOOD DRIVE
FRIENDSWOOD, TX 77546
281-992-8633

